IN THE SUPREME COURT OF THE UNITED STATES

TENNESSEE GENERAL ASSEMBLY, ET AL.
Petitioner
vs.

No:

19-1137

U.S. DEPARTMENT OF STATE, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
April 13, 2020
cc:

See Attached List

JOHN J. BURSCH
BURSCH LAW PLLC
9339 CHERRY VALLEY AVENUE SE
#78
CALEDONIA, MI 49316
RICHARD THOMPSON
THOMAS MORE LAW CENTER
PO BOX 393
ANN ARBOR, MI 48106
LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
JULIE AXELROD
401 HOLLAND LANE, APT 1414
ALEXANDRIA, VA 22314
JOANNE E. BREGMAN
ATTORNEY
6049 ROBIN HILL ROAD
NASHVILLE, TN 37205

